No.
IN THE

Supreme Court of the United States
_________
CHARMELL BROWN,
Petitioner,
v.
ALEX JONES,
Respondent.

CERTIFICATE OF SERVICE

I, Ishan K. Bhabha, hereby certify that I am a member of the bar of this Court
and that I have this 9th day of April, 2021, caused three copies of the foregoing Petition
For A Writ Of Certiorari to be served via UPS overnight delivery, postage prepaid and
one pdf copy to be served via electronic mail on:
Kwame Raoul
Attorney General of Illinois
Garson Fischer
Assistant Attorney General
100 West Randolph Street, 12th floor
Chicago, Illinois 60601
gfischer@atg.state.il.gov
Counsel for Respondent

/s/ Ishan K. Bhabha
Ishan K. Bhabha

